DAVID S. SENOFF, ESQUIRE
(215) 258-4700
 (215) 258-4777
 dsenoff@firstlawstrategy.com

January 11, 2021
VIA EMAIL: sharris@supremecourt.gov
Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543-0001
Re:

The Sherwin-Williams Company v. County of Delaware, Pennsylvania; et. al.,
No. 20-889

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents County of Delaware, Pennsylvania,
Michael Culp, John P. McBlain, Colleen P. Marrone, Kevin M. Madden and Brian Zidek
(hereinafter “Respondents”), by and through the undersigned counsel, respectfully moves for an
extension of time for filing its response to The Sherwin-Williams Company’s Petition for Writ of
Certiorari in The Sherwin-Williams Company v. County of Delaware, Docket No. 20-889, until
Monday, April 5, 2021. In further support thereof, Respondents states as follows:
1. Petitioner filed the Petition for Writ of Certiorari on December 28, 2020 and it was
docketed on January 5, 2021.
2. Pursuant to Supreme Court Rule 15.3, the current deadline for Respondent to file their
Response to the Petition for Writ of Certiorari (“Response”) is February 4, 2021.
3. Pursuant to Supreme Court Rule 30.4, the relief herein requested “may be presented in the
form of a letter to the Clerk setting out specific reasons why an extension of time is
justified…The motion may be acted on by the Clerk in the first instance, and any party
aggrieved by the Clerk’s action may request that the motion be submitted to a Justice or to
the Court.” U.S.C.S. Supreme Ct. R. 30.
4. This is Respondent’s first request for an extension of time to file its Response.
5. Pursuant to Supreme Court Rule 30.4, the Clerk has the authority to grant the additional
time requested herein.
121 S. BROAD STREET | SUITE 300 | PHILADELPHIA, PA 19107
WWW.FIRSTLAWSTRATEGY.COM

Scott S. Harris, Clerk of the Court
Supreme Court of the United States
January 11, 2021
Page -26. Respondents request an extension of time to file its Response based on the following
specific reasons, pursuant to Rule 30.4:
a. Counsel for Respondents seeks additional time to ensure efficient coordination of
a Response that comprehensively addresses the reasons why the Petition for Writ
of Certiorari should be denied and ensures strict compliance with the Rules of the
Court;
b. Due to precautions implemented in response to the national coronavirus pandemic
(“COVID-19”) and consequences of COVID-19 outside of the control of counsel,
the office of the undersigned Counsel for Respondent has been operating for several
months with limited in-office staff and limited access to certain records;
c. This Court’s March 19, 2020 Order states that “motions for extension of time
pursuant to Rule 30.4 will ordinarily be granted by the Clerk as a matter of course
if the grounds for the application are difficulties relating to COVID-19 and if the
length of the extension requested is reasonable under the circumstances”;
d. Indeed, Petitioner itself utilized the full 150 days to file a Petition from the date of
the lower court judgment, authorized by this Court’s March 19, 2020 Order; and
e. The current due date for the responsive brief overlaps substantially with Counsel
for Respondents’ court-ordered deadlines and responsibilities with respect to
several other cases.
7. Based on the foregoing, Respondents respectfully request a sixty (60) day extension of
time to file their Response, up to and including Monday, April 5, 2021.
8. Counsel for Respondent consulted with counsel for Petitioner on January 4, 2021 regarding
the relief requested, and Petitioner has advised that it has no objection to the requested
extension.
Respectfully,
David S. Senoff, Esquire
cc:

Anderson T. Bailey, Esquire (via email)
Charles H. Moellenberg, Jr., Esquire (via email)
Leon F. DeJulius, Jr., Esquire (via email)
Elizabeth G. Bentley, Esquire (via email)

